C'OCKLE
2311 Douglas Street CA Le g al Br iefs E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No.

KAYLA BUTTS, Individually and on
behalf of her daughter A.F., a minor,
Petitioner,

Vv.
THE UNITED STATES OF AMERICA,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33. \(h), I certify that the PETITION OF PETITIONER
FOR WRIT OF CERTIORARI in the above entitled case complies with the typeface requirement
of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text
and 10 point for the footnotes, and this brief contains 8871 words, excluding the parts that are

exempted by Supreme Court Rule 33. 1(d), as needed.

Subscribed and sworn to before me this 6th day of December, 2019.
1am duly authorized under the laws of the State of Nebraska to administer oaths,

PATRICIA BILLOTTE

‘
General Notary . Mitt. & Chk
State of Nebraska : ,
My Commission Expires Nov 24, 2020 <

Notary Public Affiant

 

 

39119
